June 9, 2021
Via First-Class Mail
and Electronic Filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First St., NE
Washington, D.C. 20543
Re:

Philip Palade et al. v. Board of Trustees of Univ. of Ark. et al.,
Supreme Court Case No. 20-1698

Dear Mr. Harris:
As counsel of record for all respondents, I am writing to grant blanket
consent to any person or entity for the filing of an amicus curiae brief in support of
either or neither party at the certiorari stage in the above-referenced case, so long
as any such filing complies with this Court’s rules.
Very truly yours,

David A. Curran
Associate General Counsel
Counsel of Record for Respondents
cc: Joseph W. Price II
(counsel of record for petitioners)

